2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

  

No. 20-1493

STEPHEN NICHOLS,
Petitioner,
%

E-Mail Address:
contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

WAYNE COUNTY, MICHIGAN, ET AL..

Respondents.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the MOTION FOR LEAVE TO
FILE BRIEF OF AMICUS CURIAE RESTORE THE FOURTH, INC. AND BRIEF OF AMICUS
CURIAE IN SUPPORT OF PETITIONER in the above entitled case complies with the typeface

requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point

for the text and 10 point for the footnotes, and this brief contains 3237 words, excluding the parts

that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 20th day of May, 2021.
lam duly authorized under the laws of the State of Nebraska to administer oaths.

Ondeaw-h, Blah

 

f GENERAL NOTARY-State of Nebraska
i RENEE J. GOSS 9.
f My Comm. Exp. September 5, 2023

Notary Public

Affiant
40999
